TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Many Taxpayers That Could Benefit From the
                 Income Averaging Provision for Fishermen
                            Are Not Using It



                                      September 22, 2006

                              Reference Number: 2006-30-158




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                     DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   September 22, 2006


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Many Taxpayers That Could Benefit From the
                                 Income Averaging Provision for Fishermen Are Not Using It
                                 (Audit # 200530030)

 This report presents the results of our review of the income averaging provision for fishermen.
 The overall objective of this review was to identify fishermen who could have benefited from the
 income averaging provision of the tax law in Tax Year 2004 but did not use this provision to
 compute their income taxes. Other objectives included determining why fishermen did not use
 the provision and whether the Internal Revenue Service (IRS) properly implemented the
 legislative provision to ensure the Alternative Minimum Tax (AMT) did not reduce or eliminate
 the benefit of income averaging.

 Impact on the Taxpayer
 The American Jobs Creation Act of 20041 (AJCA) provides an opportunity for fishermen to pay
 less tax by calculating their tax liability using income averaging. We estimate that over
 4,600 taxpayers overpaid an average of $530 in income tax because they or their preparers did
 not take advantage of the averaging provision in calculating the income tax liability. Taxpayers
 unaware of the income averaging provision for fishermen could overpay their income tax
 liability.




 1
     Pub. L. No. 108-357, 118 Stat. 1418 (2004).
                  Many Taxpayers That Could Benefit From the Income Averaging
                            Provision for Fishermen Are Not Using It




Synopsis
A provision in the AJCA allows fishermen to elect to compute their tax liabilities by averaging,
over the prior 3 years, all or a portion of their taxable income from fishing. This provision was
designed to help fishermen recover from low-income years by keeping more of their income in
successful years and offsetting potentially high tax burdens in isolated years with sharp
unexpected income increases. The Joint Committee on Taxation2 estimated this provision could
save fishermen up to $61 million in taxes over the next decade3 (between $3 million and
$10 million yearly).
During a prior audit,4 we reported that fewer than one-half of the taxpayers that could have
benefited from a similar provision for farmers actually used it. Lack of knowledge about the
provision by taxpayers and paid tax return preparers contributed to taxpayers not taking
advantage of the farm income averaging provision. Because the income averaging provision for
fishermen became effective only recently for tax years beginning after December 31, 2003, we
believed many fishermen might not be taking advantage of the averaging provision. In this
audit, we used computer analyses to help identify taxpayers with income from fishing that could
have benefited from the AJCA income averaging provision.
We estimate over 4,6005 taxpayers with income from fishing overpaid their taxes by not taking
advantage of the AJCA provision. This represents about 90 percent of the fishermen who could
have benefited from this provision. These taxpayers overpaid taxes on their Tax Year 2004
individual income tax returns by more than $2.4 million;6 income tax returns for 90 percent of
these taxpayers were prepared by paid tax return preparers.
We searched for IRS news bulletins and press releases regarding the income averaging provision
for fishermen but found that little effort was made to inform taxpayers and paid preparers of the
income averaging provision for fishermen.
As part of the income averaging provision for fishermen contained in the AJCA, the AMT was to
be calculated so the benefit of using the averaging provision would not be reduced or eliminated
by the AMT computation. Originally, an IRS programming error caused the AMT to be
calculated incorrectly. The IRS became aware of the programming error too late to correct



2
  The advisory committee charged with monitoring Federal tax policy and estimating the impact of proposed tax
legislation.
3
  The 10-year period referred to in the estimate dated October 5, 2004, is Fiscal Years 2005-2014.
4
  Most Taxpayers That Could Benefit From the Farm Income Averaging Provision Are Not Using It (Reference
Number 2004-30-085, dated March 2004).
5
  The estimated number of taxpayers affected is a point estimate based on a 95 percent confidence level and a
precision of +/- 10 percent which would include the range from 3,419 to 5,835 taxpayers.
6
  This point estimate is based on a 95 percent confidence level and a precision of +/- $1.2 million.
                                                                                                                2
                  Many Taxpayers That Could Benefit From the Income Averaging
                            Provision for Fishermen Are Not Using It



programming for Processing Year7 2005. However, the IRS made an interim processing change
that allowed the IRS Error Resolution System8 tax examiners to bypass the incorrect
programming and force the taxpayer’s AMT calculation to be accepted. The IRS appears9 to
have corrected the programming for Processing Year 2006.

Recommendation
We recommended the Director, Communications, Liaison and Disclosure,
Small Business/Self-Employed Division, work with the Director, Tax Forms and Publications,
Wage and Investment Division, to develop a strategy to further educate fishermen and paid tax
return preparers about the availability, benefits, and appropriate regulations related to the AJCA
income averaging provision for fishermen.

Response
The Commissioner, Small Business/Self-Employed Division, agreed that developing a strategy
to further educate fishermen and paid tax return preparers about the availability and benefits of
the income averaging provision for fishermen would be beneficial. The Director,
Communications, Liaison and Disclosure, Small Business/Self-Employed Division, will work
with Tax Forms and Publications, Wage and Investment Division, to develop a communication
strategy to promote the income averaging provision for fishermen which will include outreach
efforts. This strategy will be developed after the IRS Office of Chief Counsel issues temporary
regulations regarding the income averaging provision for fishermen.
Although the IRS believes this provision was emphasized in Highlights of 2004 Tax Law
Changes (Publication 553), Instructions for 2005 Schedule J (Form 1040), Income Averaging for
Farmers and Fishermen (Schedule J), and the 2004, Your Federal Income Tax for Individuals
(Publication 17), the IRS will also consider revising Farmer’s Tax Guide (Publication 225) and
Capital Construction Fund for Commercial Fishermen (Publication 595). Management’s
complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-8500.


7
  The calendar year the return or document was processed by the IRS.
8
  The IRS system used to correct errors made by taxpayers or IRS employees during the initial processing of tax
returns.
9
  In making this determination, we did not test IRS computer systems or transactions. However, we did interview
IRS personnel and review pertinent Functional Specification Packages relating to the programming changes.
                                                                                                                  3
                     Many Taxpayers That Could Benefit From the Income Averaging
                               Provision for Fishermen Are Not Using It




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Taxpayers That Could Benefit Are Not Using the Income Averaging
          Provision to Calculate Their Tax Liabilities.................................................Page 3
                    Recommendation 1:..........................................................Page 4

          The Internal Revenue Service Has Corrected Programming
          to Ensure Benefits From Income Averaging Are Not Reduced or
          Eliminated by the Alternative Minimum Tax ......................................... Page 5

Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 6
          Appendix II – Major Contributors to This Report ........................................Page 8
          Appendix III – Report Distribution List .......................................................Page 9
          Appendix IV – Outcome Measure ................................................................Page 10
          Appendix V – Management’s Response to the Draft Report .......................Page 11
        Many Taxpayers That Could Benefit From the Income Averaging
                  Provision for Fishermen Are Not Using It




                      Abbreviations

AJCA               American Jobs Creation Act of 2004
AMT                Alternative Minimum Tax
IRS                Internal Revenue Service
TY                 Tax Year
SB/SE              Small Business/Self-Employed
                   Many Taxpayers That Could Benefit From the Income Averaging
                             Provision for Fishermen Are Not Using It




                                             Background

A provision in the American Jobs Creation Act of 20041 (AJCA) allows fishermen to elect to
compute their tax liabilities by averaging, over the prior 3 years, all or a portion of their taxable
income from fishing. This provision was designed to help fishermen recover from low-income
years by keeping more of their income in successful years and offsetting potentially high tax
burdens in isolated years with sharp unexpected income increases. The Joint Committee on
Taxation2 estimated this provision could save fishermen up to $61 million in taxes over the next
decade3 (between $3 million and $10 million yearly). The Form for calculating tax liabilities
using the averaging method was renamed by the Internal Revenue Service (IRS) from Farm
Income Averaging (Form 10404Schedule J) to Income Averaging for Farmers and Fishermen.
In a prior audit,5 we reported that less than one-half of the taxpayers that could have benefited
from the farm income averaging provision contained in the Taxpayer Relief Act of 19976
actually used it. The farm income averaging provision had been in effect for several years. Lack
of knowledge about the provision by taxpayers and paid tax return preparers contributed to
taxpayers not taking advantage of the farm income averaging provision. Because the income
averaging provision for fishermen became effective only recently for tax years beginning after
December 31, 2003, we believed that many fishermen might not be taking advantage of the
averaging provision. During this audit, we reviewed the most recently filed tax returns available
to us to determine whether taxpayers with income from fishing were taking advantage of the
AJCA tax provision.
The AJCA also addressed the Alternative Minimum Tax (AMT), which was originally intended
to impose taxes on high-income individuals who have no liability under the regular income tax.
The stated purpose of the AMT is to keep taxpayers with high incomes from paying little or no
income tax by taking advantage of various preferences in the tax code. The AMT does so by
requiring people to recalculate their taxes under alternative rules that include certain types of
income exempt from regular tax and that do not allow specific exemptions, deductions, and other
preferences. The benefits of the special income averaging provision were often lost if the
taxpayer was subject to the AMT because averaging applied only in computing regular tax.

1
  Pub. L. No. 108-357, 118 Stat. 1418 (2004).
2
  The advisory committee charged with monitoring Federal tax policy and estimating the impact of proposed tax
legislation.
3
  The 10-year period referred to in the estimate dated October 5, 2004, is Fiscal Years 2005-2014.
4
  U.S. Individual Income Tax Return.
5
  Most Taxpayers That Could Benefit From the Farm Income Averaging Provision Are not Using It (Reference
Number 2004-30-085, dated March 2004).
6
  Pub. L. No. 105-34, 111 Stat. 788 (codified as amended in scattered sections of 5 U.S.C., 19 U.S.C., 26 U.S.C.,
29 U.S.C., 31 U.S.C., 42 U.S.C., and 46 U.S.C. app.).
                                                                                                             Page 1
                  Many Taxpayers That Could Benefit From the Income Averaging
                            Provision for Fishermen Are Not Using It



Passage of the AJCA allowed income to be determined for the AMT comparative computation
without reducing or eliminating the benefit of income averaging.
This review was performed at the IRS Campus7 in Ogden, Utah, and included a review of tax
returns filed nationwide, and discussions with personnel from the Office of Communications,
Liaison, and Disclosure, Small Business/Self-Employed (SB/SE) Division during the period
October 2005 through June 2006. The audit was conducted in accordance with Government
Auditing Standards. Detailed information on our audit objectives, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




7
 Campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                        Page 2
                   Many Taxpayers That Could Benefit From the Income Averaging
                             Provision for Fishermen Are Not Using It




                                      Results of Review

Taxpayers That Could Benefit Are Not Using the Income Averaging
Provision to Calculate Their Tax Liabilities
For Tax Year (TY) 2004, 458 taxpayers who had income from fishing took advantage of the
averaging provision and used Schedule J to calculate their individual income taxes. Through
computer analysis and statistical sampling, we determined at least 4,6278 more fishermen could
have benefited from the AJCA income averaging
provision but did not use it. Thus, about
90 percent9 of the taxpayers that would have              Over 90 percent of the fishermen that
benefited did not take advantage of the provision.           could have benefited did not take
Based on our statistical sample, we estimate that           advantage   of the income averaging
                                                         provision  of the  law, amounting to over
90 percent10 of these 4,627 taxpayers had their tax           $2.4 million in overpaid taxes.
returns prepared by paid tax return preparers.
Much of the responsibility for staying informed of
tax law changes and new tax provisions lies with taxpayers and their tax return preparers.
However, the IRS’ mission to help taxpayers understand their tax responsibilities includes
helping them legally minimize their tax burden. Besides developing appropriate tax forms and
publications, the IRS accomplishes this responsibility through taxpayer education and outreach
efforts. The fact that about 90 percent of the taxpayers who could have benefited from the AJCA
income averaging tax provision did not use it, along with the fact that almost all of these
taxpayers had their returns prepared by paid tax return preparers, indicates a problem with the
education and outreach efforts related to this provision.
We contacted management from the IRS regarding issuance of news bulletins and press releases
that would have informed the fishing community of the option available to calculate their tax
liabilities using the Schedule J. Discussions with IRS personnel indicated efforts to issue
external communications regarding income averaging for fishermen were placed on hold
pending issuance of temporary regulations by the IRS Office of Chief Counsel. The legislation
was passed in October of 2004. Taxpayers with income from fishing in 2004 would have been



8
  The estimated number of taxpayers affected is a point estimate based on a 95 percent confidence level and a
precision of +/- 10 percent which would include the range from 3,419 to 5,835 taxpayers.
9
  90 percent = 4627 / (458+4627).
10
   From our statistical sample of 100 taxpayer accounts, 39 could have benefited from averaging. Thirty-five of the
39 taxpayers had their return prepared by paid tax preparers (35/39 = 90 percent).
                                                                                                            Page 3
                      Many Taxpayers That Could Benefit From the Income Averaging
                                Provision for Fishermen Are Not Using It



able to file Schedule J provided they met the criteria for filing Schedule J (income from fishing
in 2004 and a lesser amount of taxable income for 1 or more of the prior 3 years).
The only documented outreach efforts brought to our attention, other than instructions on tax
forms and publications, consisted of a presentation at an IRS Tax Symposium on
December 14, 2004, in Anchorage, Alaska. This presentation was made by a member of the
Alaska Society of Certified Public Accountants who discussed the AJCA and detailed the
provision that allows fishermen to average their income over the prior 3 years.
We estimate 4,627 taxpayers overpaid their TY 2004 individual income taxes by more than
$2.4 million.11 Over a 5-year period, taxpayers could realize tax savings of over
$12 million (see Appendix IV).

Recommendation
Recommendation 1: The Director, Communications, Liaison and Disclosure, SB/SE
Division, should work with the Director, Tax Forms and Publications, Wage and Investment
Division, to develop a strategy to further educate fishermen and paid tax return preparers about
the availability and benefits of the AJCA income averaging provision for fishermen.
Specific and descriptive language should be used to inform these groups that the method for
calculating income tax using this provision may be advantageous to the taxpayer, and that the
taxpayer may benefit even if only a portion of his or her income is from fishing. IRS sponsored
tax symposiums might be an effective forum to disseminate this information.
           Management’s Response: The Commissioner, SB/SE Division, agreed with our
           recommendation. The Office of Chief Counsel will coordinate with the SB/SE Division
           to draft temporary regulations regarding the income averaging provision for fishermen.
           After the temporary regulations are issued the Director, Communications, Liaison and
           Disclosure, SB/SE Division, will consult the Chief Counsel and develop an appropriate
           outreach and education strategy targeting taxpayers affected by the income averaging
           provision for fishermen. The Stakeholder Liaison function of the SB/SE Division will
           implement the outreach and education strategy upon development. Additionally, the
           Communications, Liaison and Disclosure function will partner with the Tax Forms and
           Publications function, Wage and Investment Division, to ensure the income averaging
           provision is clearly explained and the Tax Forms and Publications function will consider
           revising Farmer’s Tax Guide (Publication 225) and Capital Construction Fund for
           Commercial Fishermen (Publication 595).




11
     This point estimate is based on a 95 percent confidence level and a precision of +/- $1.2 million.
                                                                                                          Page 4
                  Many Taxpayers That Could Benefit From the Income Averaging
                            Provision for Fishermen Are Not Using It



The Internal Revenue Service Has Corrected Programming to Ensure
Benefits From Income Averaging Are Not Reduced or Eliminated by
the Alternative Minimum Tax
As part of the AJCA income averaging provision for fishermen, the AMT was to be calculated so
the benefit of using the averaging provision would not be reduced or eliminated by the AMT
computation. Originally, an IRS programming error caused the AMT to be calculated
incorrectly. The IRS became aware of the programming error too late to correct programming
for Processing Year12 2005. However, the IRS made an interim processing change that allowed
the IRS Error Resolution System13 tax examiners to bypass the incorrect programming and force
the taxpayer’s AMT calculation to be accepted. The IRS appears14 to have corrected the
programming for Processing Year 2006.




12
   The calendar year the return or document was processed by the IRS.
13
   The IRS system used to correct errors made by taxpayers or IRS employees during the initial processing of tax
returns.
14
   In making this determination, we did not test IRS computer systems or transactions. However, we did interview
IRS personnel and review pertinent Functional Specification Packages relating to the programming changes.
                                                                                                          Page 5
                   Many Taxpayers That Could Benefit From the Income Averaging
                             Provision for Fishermen Are Not Using It



                                                                                                     Appendix I

         Detailed Objectives, Scope, and Methodology

Our overall objective was to identify fishermen who could have benefited from the income
averaging provision of the tax law in TY 2004 but did not use this provision to compute their
income taxes. Other objectives included determining why they did not use the provision and
whether the IRS properly implemented the legislative provision to ensure the AMT did not
reduce or eliminate the benefit of income averaging.
To accomplish our objectives, we:
I.       Identified all taxpayers that had positive income from fishing during TY 2004 as well as
         negative or significantly lower taxable income in any of the prior 3 years
         (TYs 2001 – 2003) by obtaining a computer extract (database) of taxpayers from the IRS
         Individual Master File.1
         A. Assessed the reliability2 of the data by reviewing a random sample of 20 returns and
            researching them on the IRS Integrated Data Retrieval System.3
II.      Determined whether taxpayers were taking advantage of averaging income from fishing
         by analyzing the database to determine the number of taxpayers that used the Income
         Averaging for Farmers and Fishermen (Form 10404 Schedule J) and those that had not
         filed a Schedule J but met the criteria to file it.
         A. Analyzed the database to identify the total number of taxpayers that most likely
            would benefit from filing a Schedule J by selecting returns with the following criteria:
            positive income from fishing of $500 or more5 in TY 2004, taxable income of $500 or
            more in TY 2004, and a lesser amount of income from fishing in any of the prior
            3 years.
         B. From the population of 458 taxpayers that had filed a Schedule J, examined a
            statistical sample6 of 33 taxpayers that did not owe the AMT and all

1
  The IRS database that maintains transactions or records of individual tax accounts.
2
  Upon completion of our tests of data reliability, we deemed the data sufficiently reliable to accomplish the overall
objectives of the audit.
3
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
4
  U.S. Individual Income Tax Return.
5
  This dollar criterion was established by the audit team for this audit.
6
  We used a statistical sample to estimate the number of taxpayers or practitioners in our population of Schedule J
filers that had calculated the AMT amount correctly. We used a 95 percent confidence level, an expected error rate
of 10 percent, and precision of +/- 10 percent.
                                                                                                               Page 6
                   Many Taxpayers That Could Benefit From the Income Averaging
                             Provision for Fishermen Are Not Using It



             17 taxpayers that owed the AMT, to determine whether the taxpayer or paid tax
             return preparer had calculated the AMT correctly and the IRS procedure for
             calculating the AMT had not reduced or eliminated the benefit of income averaging.
         C. Determined the number of taxpayers that met the criteria described in Step II. A. for
            TY 2004 but had not filed a Schedule J by selecting returns with the following
            criteria: positive income from fishing in TY 2004, taxable income greater than $5007
            in TY 2004, no Schedule J filed in TY 2004, and a lower amount of income in 1 of
            the prior 3 years. The population was 11,863 taxpayers.
         D. Examined a statistical sample8 of 100 of the 11,863 taxpayers and determined 39 of
            the taxpayers (39 percent) could have reduced their tax liabilities and saved money if
            they had calculated their taxes using Schedule J. We calculated the tax liabilities for
            TY 2004 returns with the Schedule J. To ensure our calculations were accurate, we
            requested that an IRS employee with experience in working the Schedule J review
            20 returns from our sample.
III.     Determined whether the IRS’ efforts to notify taxpayers and paid tax return preparers of
         the provision allowing taxpayers with fishing income to calculate their income tax
         liability using income averaging were adequate.
         A. Interviewed management to determine the efforts made to inform taxpayers of the
            income averaging change.
         B. Determined whether news releases and bulletins had been issued to educate taxpayers
            and tax return preparers of the averaging provision.




7
  This dollar criterion was established by the audit team for this audit.
8
  We used a statistical sample to estimate the amount of tax overpaid by taxpayers in the population that had positive
income from fishing in TY 2004 and a lesser amount of income in 1 of the prior 3 years. We used a 95 percent
confidence level, an expected error rate of 48 percent, and precision of +/- 10 percent.
                                                                                                              Page 7
               Many Taxpayers That Could Benefit From the Income Averaging
                         Provision for Fishermen Are Not Using It



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Kyle R. Andersen, Director
Larry Madsen, Audit Manager
George Burleigh, Lead Auditor
Bill Russell, Senior Auditor
James E. Adkisson, Information Technology Specialist




                                                                                        Page 8
               Many Taxpayers That Could Benefit From the Income Averaging
                         Provision for Fishermen Are Not Using It



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Office of Professional Responsibility SE:OPR
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:M:CLD
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Media and Publications, Wage and Investment Division SE:W:CAR:MP
Director, Tax Forms and Publications, Wage and Investment Division SE:W:CAR:MP:T
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S:COM
       Commissioner, Wage and Investment Division SE:W:S:PA




                                                                                      Page 9
                   Many Taxpayers That Could Benefit From the Income Averaging
                             Provision for Fishermen Are Not Using It



                                                                                                  Appendix IV

                                       Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; $12,261,550 in overpaid taxes from
    4,6271 taxpayer accounts. The dollar amount represents a projection over 5 years
    (see page 3).

Methodology Used to Measure the Reported Benefit:
Using computer programs, we identified 23,585 taxpayer accounts on the IRS Individual Master
File2 with positive income from fishing in TY 2004 and a lesser amount of income in any of the
prior 3 years. We reduced the number of accounts in our database to 11,863 by identifying
taxpayer accounts that had not filed an Income Averaging for Farmers and Fishermen
(Form 10403 Schedule J) in TY 2004, had income from fishing and taxable income of $500 or
more,4 and had a lesser amount of income in any of the prior 3 years. We found 458 of the
23,585 accounts had used Schedule J to calculate TY 2004 taxes.
We reviewed a statistical sample of 100 accounts from the population of 11,863 accounts. Our
sample size was determined based on a 95 percent confidence level, an expected error rate of
48 percent, and precision of ± 10 percent. A total of 39 of the 100 returns would have benefited
from averaging the income from fishing, for an average of $530 per return. When this average
adjustment is projected over 5 years to 39 percent of the population, 4,627 taxpayers could save a
total of $12,261,5505 in overpaid taxes.




1
  The estimated number of taxpayers affected is a point estimate based on a 95 percent confidence level and a
precision of +/- 10 percent which includes the range from 3,419 to 5,835 taxpayers.
2
  The IRS database that maintains transactions or records of individual tax accounts.
3
  U.S. Individual Income Tax Return.
4
  This dollar criterion was established by the audit team for this audit.
5
  The point estimate of $2.4 million used in this calculation is based on a 95 percent confidence level and a precision
of +/- $1.2 million.
                                                                                                             Page 10
   Many Taxpayers That Could Benefit From the Income Averaging
             Provision for Fishermen Are Not Using It



                                                   Appendix V

Management’s Response to the Draft Report




                                                         Page 11
Many Taxpayers That Could Benefit From the Income Averaging
          Provision for Fishermen Are Not Using It




                                                      Page 12
Many Taxpayers That Could Benefit From the Income Averaging
          Provision for Fishermen Are Not Using It




                                                      Page 13
